        Federal Communications Commission
             Office of Inspector General




FY 2004 Federal Information Security Management Act
    Independent Evaluation and Risk Assessment


             Report No. 04-AUD-06-08



                  September 20, 2004
                     TABLE OF CONTENTS

                                                                           Page

EXECUTIVE SUMMARY                                                               3

BACKGROUND                                                                      5

OBJECTIVE                                                                       6

SCOPE                                                                           6

OBSERVATIONS                                                                    8

APPENDIX A          Summary of Findings                                      A-1


APPENDIX B          Detailed Findings & Recommendations                      B-1


APPENDIX C          Management Response                                      C-1




                                                          Risk & Advisory Services
                                                                   Washington, DC
                                                                Report No. 04-AUD-06-08




 EXECUTIVE             The Federal Information Security Management Act (“FISMA” or
                       “the Security Act”) was signed into law on December 17, 2002
 SUMMARY
                       as Title III, “Information Security”, of the E-Government Act of
2003. FISMA permanently reauthorized the framework established by the Government
Information Security Reform Act (GISRA), which expired in November 2002.

A key provision of FISMA requires that the agency Office of Inspector General (OIG), or
designated independent evaluators, perform an annual review of the agency’s information
security program and practices. For fiscal year (FY) 2004, the Federal Communications
Commission’s (“the Commission” or “FCC”) OIG engaged KPMG, LLP to conduct its
independent evaluation and risk assessment.

The scope of the review included the security infrastructures managed by the Office of
Managing Director’s (OMD) Information Technology Center (ITC) and the Auctions
Operations Branch of the Wireless Telecommunications Bureau (WTB). Our approach
included analyzing documentation, interviewing personnel responsible for the security
and administration of information resources, and reviewing previously performed audits
and special reviews. During the review, we also followed up on the status of corrective
actions for FY 2001 and FY 2002 GISRA findings. Audit fieldwork was conducted from
March 11, 2004 through July 6, 2004 at the FCC’s Portals headquarters located in
Washington, DC and Laurel Labs in Laurel, Maryland.

The objective of the current year’s FISMA review was to evaluate the effectiveness of the
Commission’s information security program. Our review included, but was not limited
to, security policies, security architecture, business continuity, security capital planning,
critical infrastructure, and security program planning and management.

The framework for our methodology was provided by the “Self-Assessment Guide for
Information Technology Systems (Self-Assessment Guide)” issued by the National
Institute of Standards and Technology (NIST). As appropriate, guidance prescribed by the
“Federal Information System Controls Audit Manual (FISCAM)” was used. Guidance was
also obtained from additional NIST publications, other laws and directives pertaining to the
protection of Federal information resources, and agency-specific guidance.

The Office of Management and Budget’s (OMB) Memoranda M-03-19, entitled
“Reporting Instructions for the Federal Information Security Management Act and
Updated Guidance on Quarterly IT Security Reporting” was followed to perform and
report upon the results of our independent evaluation. The instructions posed several
questions regarding high-level management performance measures that were to be
addressed by Agency Heads, Agency Program Officials, and agency OIGs. A separate
report with responses to the questions asked of agency OIGs will be prepared and
submitted with the Commission’s FY 2004 FISMA Submission.


                                                                    Information Risk Management
                                                                                   Washington, DC

                                         Page 3 of 10
                                                              Report No. 03-AUD-06-08



Overall, we determined that the FCC continues to demonstrate dedication to improving
and maintaining the protection of its information assets. Notably, the Computer Security
Program (CSP) has dedicated resources and worked in concert with other groups within
ITC to evaluate and implement controls to strengthen the effectiveness of information
security. During our evaluation, we noted several positive security controls as well as
well as areas where improved controls are recommended.

Appendices A and B to this report provide the details of the observations and conditions
identified and reviewed during our FY 2004 independent evaluation and risk assessment.
Recommendations are provided for consideration by FCC management.

Specifically, we identified one (1) new finding in the area of operational controls. This
finding has been classified as Medium Risk. Additionally, we determined that five (5) of
the conditions identified during the FY 2001 GISRA evaluation and three (3) from the
FY 2002 GISRA evaluation had not been fully corrected at the time of audit fieldwork.
Of these eight (8) outstanding conditions, three (3) were originally classified as High
Risk. We did not review the status of outstanding conditions from the FY 2003 FISMA
review.

On August 31, 2004, we provided a draft to the Office of Managing Director (OMD) for
review and comments. In its response dated September 17, 2004, OMD indicated
concurrence with the one (1) new finding in FY 2004, and seven (7) of the eight (8)
conditions identified during the FY 2002 and FY 2001 GISRA evaluations. On one
finding, no audit follow-up was performed. For all findings, OMD outlined the corrective
action taken and/or a milestone schedule for implementation of corrective action. We
have included a copy of the response from OMD in its entirety as Appendix C to this
report.

Due to the sensitive nature of the information contained in the appendices, we have
marked them all “Non-Public – For Internal Use Only” and have limited distribution.
Those persons receiving this report are requested not to photocopy or otherwise distribute
this material.




                                                                         Risk Advisory Services
                                                                                Washington, DC
                                         4 of 10
                                                              Report No. 03-AUD-06-08




   BACKGROUND                The Federal Information Security Management Act
                             (“FISMA” or “the Security Act”) was signed into law on
December 17, 2002 as Title III, “Information Security”, of the E-Government Act of
2003. The Security Act permanently reauthorized the framework established by the
Government Information Security Reform Act (GISRA), which expired in November
2002.

A key provision of FISMA requires that the agency Office of Inspector General (OIG), or
designated independent evaluators, perform an annual evaluation of the agency’s
information security program and practices. For fiscal year (FY) 2004, the Federal
Communications Commission’s (“the Commission” or “FCC”) OIG engaged KPMG,
LLP to conduct the agency’s risk assessment and independent evaluation.

The framework for our methodology was provided by the “Self-Assessment Guide for
Information Technology Systems (Self-Assessment Guide)” issued by the National
Institute of Standards and Technology (NIST). As appropriate, guidance prescribed by
the “Federal Information Systems Control Audit Manual (FISCAM)” was used.
Guidance was also obtained from additional NIST publications, as well as other laws and
directives pertaining to the protection of Federal information resources as listed below,
including agency-specific guidance. The primary guidelines used in the course of this
review are as follows:

      The E-Government Act of 2002, Public Law 107-347, enacted on December 17,
       2002
      Presidential Decision Directive (PDD) 63, entitled “Critical Infrastructure
       Protection”
      PDD-67, entitled “Continuity of Operations Planning (COOP)”
      Office of Management and Budget (OMB) Circular A-130, entitled “Management
       of Federal Information Resources”, as revised on November 30, 2000
      OMB M-97-16, entitled “Information Technology Architectures”
      OMB M-97-02, entitled “Funding Information Systems Investments”
      Draft FY 04 “Updated Reporting Instructions for FISMA and Guidance on
       Quarterly IT Security Reporting”
      OMB M-03-19, “Reporting Instructions for the Federal Information Security
       Management Act and Updated Guidance on Quarterly IT Security Reporting”
       (August 6, 2003)
      FCC INST 1479.2 “Computer Security Program Directive.”
      NIST Special Publication 800-37, “Guidelines for the Security Certification and
       Accreditation of Federal Information Technology Systems”(October 2002, Draft)

Our procedures were designed to comply with applicable auditing standards and
guidelines, specifically the Generally Accepted Government Auditing Standards
(GAGAS).


                                                                        Risk Advisory Services
                                                                               Washington, DC
                                         5 of 10
                                                                Report No. 03-AUD-06-08




 OBJECTIVE           Our objective was to evaluate the effectiveness of the
                     Commission’s information security program by assessing the risk
for each component of the program. The specific objectives of the evaluation were to:

   1. Obtain an understanding of the Commission’s Information Technology (IT)
      infrastructure.

   2. Obtain an understanding of the Commission’s information security program and
      practices.

   3. Use FISMA security assessment tools to evaluate the effectiveness of the
      Commission’s information security program.

   4. Prepare the annual submission in accordance with the reporting requirements
      mandated under FISMA for FY 2004. In addition to preparing the annual
      submission, provide a detailed report to (1) identify and rank the critical security
      risk factors and (2) document observations and recommendations for
      improvements, if any.

   5. Follow-up on audit findings from the FY 2001 and FY 2002 GISRA reviews
      documented by FCC-OIG report numbers 01-AUD-11-43 and 02-AUD-02-06.

Specific recommendations, as warranted, have been developed to address any internal
control deficiencies identified during the conduct of review fieldwork.


  SCOPE      The scope of our independent evaluation and risk assessment included the
             security infrastructures managed by the Office of the Managing Director’s
 (OMD) Information Technology Center (ITC) and the Auctions Operations Branch of
the Commission’s Wireless Telecommunications Bureau (WTB).

The FY 2004 FISMA audit encompassed a review of the Commission’s security program
including, but not limited to, security policies, security architecture, business continuity,
security capital planning, critical infrastructure, and security program planning and
management. The review also followed up on the status of corrective actions for FY
2001 and FY 2002 GISRA findings and an aging analysis of quarterly Plans of Actions
and Milestones (POA&Ms).

Follow-up on new findings reported by the FY 2003 FISMA review was not included in
the current year’s scope of work due to the accelerated start date of this year’s FISMA
review in support of the financial statement audit reporting requirements. To provide



                                                                           Risk Advisory Services
                                                                                  Washington, DC
                                           6 of 10
                                                                Report No. 03-AUD-06-08



OMD adequate time to implement corrective actions on FY 2003 findings, follow-up on
these will be included in the next year’s FISMA evaluation.

The Security Act also requires that the OIG select an appropriate subset of agency
applications for review. Our FY 2003 Audit of Revenue Accounting & Management
Information System (RAMIS) Application Controls satisfies this requirement for the
current year. The results of this audit can be found in OIG Report No. 03-AUD-01-01,
which will be forwarded with the Commission’s FY 2004 FISMA Submission to OMB.

Our observations from the independent evaluation and risk assessment have been
organized according to the NIST control areas of management, operational, and technical
controls. The control areas are defined below and the specific control techniques
addressed by each are outlined.

   Management Controls – Management controls focus on the management of the IT
   security system and the management of risk for a system. They are techniques and
   concerns that are normally addressed by management. The specific management
   control objectives addressed were:

   •   Risk Management
   •   Review of Security Controls
   •   Life Cycle
   •   Authorize Processing (Certification and Accreditation)
   •   System Security Plan

   Operational Controls – Operational controls address security methods focusing on
   mechanisms primarily implemented and executed by people (as opposed to systems).
   These controls are put in place to improve the security of a particular system (or
   group of systems). They often require technical or specialized expertise and often
   rely upon management activities as well as technical controls. The specific
   operational control objectives addressed were:

   •   Personnel Security
   •   Physical and Environmental Protection
   •   Production, Input/Output Controls
   •   Contingency Planning
   •   Hardware and System Software Maintenance
   •   Data Integrity
   •   Documentation
   •   Security Awareness, Training and Education
   •   Incident Response Capability




                                                                        Risk Advisory Services
                                                                               Washington, DC
                                        7 of 10
                                                              Report No. 03-AUD-06-08



   Technical Controls - Technical controls focus on security controls that the computer
   system executes. The controls can provide automated protection for unauthorized
   access or misuse, facilitate detection of security violations, and support security
   requirements for applications and data. The specific technical operational control
   objectives addressed were:

   •    Identification and Authentication
   •    Audit Trails
   •    Logical Access Controls

Each finding has been further categorized by risk ratings of ‘High’, ‘Medium’, or ‘Low’.
In assigning ratings, we considered whether each condition, if exploited, could result in
misuse or loss of FCC data, as well as the potential degree of exposure to the
Commission. Risk categories are defined below:

       High Risk:               A security risk which can cause a business disruption, if
                                exploited. The identified condition presents a level of
                                risk that requires immediate and appropriate redress by
                                FCC management. To not do so would have the potential
                                effect of increasing the risks of unnecessary system
                                downtime, misuse, and destruction/exposure of critical
                                FCC data.

       Medium Risk:             A security risk in conjunction with other events, which
                                can cause a business disruption, if exploited. It is
                                important for FCC management to take appropriate
                                corrective action on these medium-risk security control
                                conditions in order to protect the integrity, availability,
                                and confidentiality of FCC data.

       Low Risk:                A security risk which may cause operational annoyances,
                                if exploited.



      AUDIT               During our FISMA review we assessed documentation
  OBSERVATIONS            provided by the Commission, reviewed previously performed
                          special reviews and audits, conducted interviews of agency
staff, and performed other activities of inquiry and observation. Audit fieldwork was
conducted from March 11, 2004 through July 6, 2004 at the FCC’s Portals headquarters
located in Washington, DC and Laurel Labs in Laurel, Maryland.

In our determination, the FCC continues to demonstrate a commitment to protecting
federal information resources and data of the Commission. During our evaluation, we


                                                                         Risk Advisory Services
                                                                                Washington, DC
                                            8 of 10
                                                                Report No. 03-AUD-06-08



noted several positive security controls related to the FCC’s information security program
and practices:

       •   Ninety percent (90%) of the Commission’s major applications and general
           support systems have been certified to operate. By comparison, at the close of
           FY 2003, eight (8) or 42% of the systems had received an authority to operate
           (ATO). At the time of our audit, only two (2) systems were awaiting an ATO.

       •   The ITC’s Disaster Recovery Plan has been finalized and included as
           Appendix F of the FCC Facilities Continuity of Operations Plan (COOP).

       •   Neither the ITC nor WTB Auctions Automation Branch experienced
           computer security incidents due to improperly configured or improperly
           patched web presence and/or internal infrastructure hosts in FY 2004.

       •   The FCC has strong controls regarding the back up of critical Commission
           data, specifically with the dual-redundancy built into the FCC’s Storage Area
           Network (SAN) environment.

       •   The CSP regularly communicates computer security information to all FCC
           users. These communications discuss practices for safeguarding information
           resources, threats to computer security, and educational topics related to
           computer security.

While the Commission has implemented numerous positive security controls over its
computer resources, we identified an area for improvement. Specifically, the evaluation
identified one (1) new finding in the area of operational controls.

Based upon our follow-up on FY 2001 GISRA observations, we determined that
corrective actions have not been fully implemented for five (5) findings. Additionally,
three (3) findings from the FY 2002 GISRA evaluation were determined to be
unresolved. Of these eight (8) outstanding conditions, three (3) were originally classified
as ‘High’ risk, four (4) as ‘Medium’ risk, and one (1) as ‘Low’ risk. We did not review
the status of outstanding conditions from the FY 2003 FISMA review.


Appendix A provides the Summary of Findings from the FY 2003 FISMA review.
Appendix B is a report of Detailed Findings and Recommendations, which outlines
detailed information on the conditions identified, criteria used to evaluate the condition,
effect, and recommendation(s). Both appendices identify new conditions that resulted
from the current year’s review as well as conditions from the FY 2001 and FY 2002
GISRA reviews that were noted with an ‘open’ status.

On August 31, 2004, we provided a draft to the Office of Managing Director (OMD) for


                                                                           Risk Advisory Services
                                                                                  Washington, DC
                                           9 of 10
                                                            Report No. 03-AUD-06-08



review and comments. In its response dated September 17, 2004, OMD indicated
concurrence with the one (1) new finding in FY 2004, and seven (7) of the eight (8)
conditions identified during the FY 2002 and FY 2001 GISRA evaluations. On one
finding, no audit follow-up was performed, due to timing issues. During the FY 2003
FISMA Review, we noted that COALS was not in compliance with the FCC SDLC
Methodology. Because to the timing of the FY 2004 FISMA Review, we were unable to
follow up with COALS project personnel for a status of the system’s compliance with the
FCC SDLC Methodology. However, the status will be followed up on during the FY
2005 FISMA Review. For all findings, OMD outlined the corrective action taken and/or
a milestone schedule for implementation of corrective action. .We have included a copy
of the response from OMD in its entirety as Appendix C to this report.

This report contains non-public information. In accordance with the Commission’s
directive on the Management of Non-Public Information (FCCINST 1139), we have
classified all appendices as “Non-Public – For Internal Use Only.” Recipients of this
report are expected to follow the established policies and procedures for managing and
safeguarding the non-public information contained in this report as outlined in FCCINST
1139.




                                                                       Risk Advisory Services
                                                                              Washington, DC
                                        10 of 10
